                       U.S. Environmental Protection Agency 	                                               09-P-0055
                                                                                                      December 9, 2008
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review            Results of Technical Network Vulnerability
The Office of Inspector
                                  Assessment: EPA’s National Computer Center
General contracted with
Williams, Adley & Company,         What Williams, Adley & Company, LLP, Found
LLP, to conduct the annual
audit of the U.S.                 Vulnerability testing of EPA’s National Computer Center network identified
Environmental Protection          Internet Protocol addresses with high-risk and medium-risk vulnerabilities.
Agency’s (EPA’s) compliance       Although National Computer Center personnel have taken actions to remediate
with the Federal Information      some of the documented findings, several vulnerabilities (both high and medium)
Security Management Act           still remain unresolved.
(FISMA). Williams, Adley &
Company, LLP, conducted the        What Williams, Adley & Company, LLP, Recommends
network vulnerability testing
of the Agency’s local area        Williams, Adley & Company, LLP, recommends that the Director of the National
network located at EPA’s          Computer Center:
National Computer Center in
Research Triangle Park, North     •	 Complete actions to address all unresolved vulnerability findings.
Carolina.
                                  •	 Update EPA’s Automated Security Self Evaluation and Remediation
                                     Tracking (ASSERT) system in accordance with the EPA Procedure for
Background                           Information Security Plans of Actions and Milestones for the vulnerabilities
                                     not resolved within the required timeframes
The network vulnerability         •	 Perform a technical vulnerability assessment test of the National Computer
testing was conducted to             Center network and managed assets at the Las Vegas Radiation and Indoor
identify any network risk            Environments National Laboratory, within 30 days, to demonstrate and
vulnerabilities and present the      document corrective actions that have resolved the vulnerabilities.
results to the appropriate EPA
officials to promptly             Due to the sensitive nature of this early warning report’s technical findings, the
remediate or document             full report is not available to the public.
planned actions to resolve the
vulnerability.



For further information,
contact our Office of
Congressional, Public Affairs,
and Management at
(202) 566-2391.
